*■

-ft

it

86-7606

!l

IN THE SUPREME COURT OF THE UNITED STATES

CASE NO.:
filed

ZOEAJJAHNON,
PLAINTIFF- PETITIONER

mar

-8 2021

^^imCLERK

-VST. JOSEPH UNIVERSITY MEDICAL CENTER
AND

RWJ BARNABAS HEALTH, INC.,
DEFENDANTS- RESPONDENTS
ON PETITION FOR WRIT OF CERTIORARI TO THE U.S. THIRD CIRCUIT
COURT OF APPEALS (Civil Appeal No. : 20-2386)

PETITIONER' ARGUMENT IN SUPPORT OF THE PETITION

ZOEAJJAHNON
PRO SE PLAINTIFF
110 Chestnut Ridge Rd.,
Montvale, NJ 07645
Ph.:551-270-3966

RECEIVED
MAR 1 1 2021
OFFICE OF THE CLERK
SUPREME COURTUfi

QUESTIONS PRESENTED
This matter concerns an action brought under False Claims Act (FCA) provisions of S.
386, Pub. L. 111-21(2009) - Fraud Enforcement and Recovery Act (FERA) 2009; and
under Constitutionally protected due process rights grants of the Fourteenth Amendment.
The complaint labored that although the Government has sustained damages - by
definition inherent the FCA Claim FERA § 4(b)(2) (A) (ii) - plaintiff’s action under these
same provisions is valid to pursue remedy of plaintiff’s damages not the Government’s.
Indeed, “(Sec. 4 [of FERA (2009)) Amends the False Claims Act to: (1) expand liability
under such Act for making false or fraudulent claims to the federal government; and (2)
apply liability under such Act for presenting a false or fraudulent claim for payment or
approval (currently [/prior the 2009 amendments] limited to such a claim presented to an
officer or employee of the federal government). ...” (Emp. added) (Congress.gov
website). The U.S. Third Circuit Court of Appeals appears to disagree, rendering an
opinion that does not clarify for the specific question of the validity of the FCA claim as
brought and, further dismissed, at variance to consistent court teachings (including their
own*), the permissive due process rights grounds material to the FCA claims. The
Court’s review is sought to give direction respecting federal courts arbitrary applicability
of the FCA claim as codified in 31 U.S.C.§§ 3729-3733. The lower courts limit the FCA
liability to the false claim made to the Government but the FCA claim clearly refutes this
constraint in FERA 2009, where the Government damage is qualified in a “portion” of
the FCA claim / the demand for payment, and 31 U.S.C.§3730 (b)(1) gives that the FCA
claim may be brought for ‘the person’[/plaintiff] and the Government. The FCA claim
attaches defendant liability to “[an]other recipient” than the Government, 31 U.S.C.
§3729 (b)(2)(A)(ii). Plaintiff contends that where the FCA claim extends to “[an] other
recipient of the false claim for money, the scope of the FCA liability also extends to this
‘other- than-the-govemment-recipient’. Further, the Court’s review will instruct on the
allowance of the Constitutionally protected due process rights of 42 U.S.C. §1983
grounds in this case as they inform the materiality element of the FCA claim.
The questions are,
1) Under 31 U.S.C. §3729 (b)(2)(A)(ii) - FERA § 4(b)(2)(A)(ii) of 31 U.S.C. §§
3729-3733, is the FCA claim only viable for recovery of government damages and turns
only on government participation, does the ‘other recipient’ of this false claim for money
from the Government have grounds for remedy of plaintiff’ individual damages, that is,
plaintiff’ (‘nongovernment’) portion of the FCA claim?
2) Do Court teachings support defendants due process violations of the Constitution'
Fourteenth Amendment codes in 42 U.S.C. §1983 material for FCA liability?
*The Third Circuit cited Benn v. Universal Health Inc. (3d. cir. 2004)to dismiss for lack of
standing in 42 USC §1983 at variance with standard Court teachings and the Third circuit’s prior
application of those standards, in the argument that defendants are “private actors” and therefore
not liable for the “state actions” of the complaint.
l

TABLE OF CONTENTS

QUESTIONS PRESENTED
TABLE OF AUTHORITIES

IV

THE PARTIES

,vi

RELATED ACTION

Vll

PETITION FOR WRIT OF CERTIORARI

.Vll

OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS

,2

STATEMENT OF CASE

2

REASONS FOR GRANTING THE WRIT
I.

II.

III.

IV.

6

The Court’s Review is Sought to Give Direction to
Federal Courts Arbitrary Applicability of the FCA Claim
as Defined in FERA 2009 - codified in 31 U.S.C. §§ 3729-3733

6

The Court’s Review is further Necessary in that the FCA Claims
arose from due process violations and the Third circuit’ instant
opinion has Significantly departed from Established Consistent
Court Teachings on Federally Protected Due Process Laws and
Grants of the Constitution in 42 USC § 1983 ...........................

9

A Matter of National Importance Under Title 42
in the Interests of General Public Health and Welfare

22

Significant Judicial Deficiencies in the Lower Courts Proffer
Another Reason For the Court’s Review...............................

28

CONCLUSION AND PRAYER FOR RELIEF

li

33

INDEX OF APPENDICES
APPENDIX A
Third Circuit Opinion (12/28/2020)

la - 5a

APPENDIX B
Third Circuit Opinion (11/27/2020)

6a-10a

APPENDIX C
District Court Opinion (6/28/2020)

lla-14a

APPENDIX D
Argument in Support of Appeal (7/31/2020)

15a-28a

APPENDIX E
Petition for En Banc and Panel Rehear (12/8/2020)

29a - 42a

APPENDIX F
1. U.S. Department of Justice Letter Pre-Warning its Intent to
Decline Intervention with bold and underline text that the
‘filing will suggest that the [district] dismiss
your False Claims Acts Claim’ (11/22/2019).....................
2. U.S. Notice of Election to Decline Intervention
and Suggestion to Dismiss FCA Claims (1/2/2020)...........

43a
44a- 46a

3. Plaintiff Response to U.S. Notice to Decline
and Suggestion to Dismiss (dated,1/18/2020; filed, 1/30/2020).....47a -50a
4. Summons Returned Executed on Defendants (2/7/2020)
5. Defendant, St. Joseph’s False Statement of Certification
of Service of Answer on Plaintiff (2/26/2020)............. .
APPENDIX G
Response to Defendant, St. Joseph’s Answer and
Motion for Summary Judgement (dated,3/17/2020; filed,3/20/2020)
APPENDIX H
1. Motion to Dismiss Defendant, RWJ Barnabas
[Default] Answer (4/17/20).....................................................
2. Plaintiffs Response to Defendant, RWJ Barnabas 05/05/2020
Brief in Opposition to Motion to Dismiss (5/9/2020).............
APPENDIX I
Complaint (69a -155a) with accompanying Exhibits(156a- 226a)
in

51a - 55a

56a

57a-62a

63a - 64a
65a - 68a
69a - 226a

TABLE OF AUTHORITIES
PAGE
CASES
Addington v. Texas, 441 U.S. 418; 99 S. Ct. 1804; 60 L. Ed.,2d 323 (1979)

17

Benn v. Universal Health Systems Inc., 371 F.3d 165 (3d Cir. 2004)

18,19

D C. 281 N.J. Super. 102, 656 A.2d 861 (A.D. 1995) reversed
146 N.J. 31,679 A. 2d 634 (1996) ...................................

18

Matter of Commitment D.M. supra 313 N.J. Super, at 450

8

Dluhos v. Strasberg, 321 F.3d 365, 374 (3d Cir. 2003)

19

Edmonson v. Leesville Concrete Co., 500 U.S. 614, 627-628, 111 S.Ct. 2077,
144 L.Ed. 2d 660 (1991)..................................................................................

20

Evans v. Newton, 382 U.S. 296, 299, 301, 86 S.Ct. 486, 15 L.Ed. 2d 373 (1966) ...20
Fair Oaks Hospital v. Pocrassl 266 N.J. Super, 140,628 A. 2d 829 (L.1993)

21

Flagg Bros., Inc. v. Brooks, 436, U.S. 149,155,98 S.Ct. 1729, 56 L.Ed.2d 185 (1978).. .19
J.R. 390 N.J. Super 523,916 A.2d 463 (A.D. 2007)
Lugar v. Edmondson Oil Co., Inc., 457 U.S. 922 (1982)

18
18,19, 20

MM, 384 N.J. Super 313, 894 A.2d 1158 (A.D. 2006)

17

Parrat v. Taylor, 451 U.S. 527, 535-36, 101 S.Ct. 1908, ■
1912-1913 68 L.Ed. 2d 420 (1981)....................................

19

Pennsylvania v. Board ofDirectors of City Trusts ofPhiladelphia, 353 U.S. 230,
231,77 S.Ct. 806, 1 L.Ed. 2d 792 (1957) (per curiam).........................................

,20

Plain v. Flicker 645 F. Supp.898 (D.N.J. 1986)

22

Poe v. Oilman, 367 U.S. 497, 540 541 (1961)

20

Rendell-Baker v. Kohn, 457 U.S. 830, 838,102 S.Ct. 2764, 73 L.Ed. 2d 418 (1982)

19

United States v. Classic 313, U.S. 299, 326 (1941)

19

IV

United States v. Lang 251 F. Supp. 3d 971, 975 (E.D. N.C. 2017)

9

United States ex. rel. Brown v. Celegene Corp. 226 F. Supp. 3d. 1032, 1044-45
(CD. Cal. 2016)..................................................................................................

14

United States ex. rel. Clausen v. Lab. Corp. ofAm., 290 F. 3d. 1301,1311,
(11th Cir. 2002)..........................................................................................

9

United States ex.rel. Hobbs v. Medquest Assoc. Inc.,Ill F.3d. 707,714(6th Cir.2013). ..11
United States ex.rel. Schimelpfenig v. Dr. Reddy’ Labs. Ltd., 2017 WL1133956
(E.D. PA, Mar., 2017)........................................................................................

14

Universal Health Services. Inc. v. U.S. and Commonwealth ofMass, ex.rel. Escobar
136 S.Ct. 1989 (2016)
11,14,23
20

Westv. Atkins, 487 U.S. 42, 56, 108 S.Ct. 2250, lOlL.Ed. 2d 40 (1988)
STATUTES AND RULES
31 U.S.C. §§ 3729-3733

.2, 6, 13, 15, 18, 23

31U.S.C. § 3729(b)(2)(A)

7,8

31 U.S.C. §£3729 (b)(3)(4)

8

31 U.S.C. § 3730(b)(1)
31 U.S.C. § 3730(b)(2)
28 U.S.C. § 1654
42 U.S.C. §§1981 and 1983
42 U.S.C. § 1983
42 U.S.C. §1981 (c)

6, 12
1,13
13
13,15,23
2, 9, 16, 18, 19, 20, 22, 23,28
.22,23

42 U.S.C. § 1320a-7b(b)

26

18 U.S.C. §242

22

Pub.L.111-21, 123 Stat. 1617(2009) - Fraud Enforcement and Recovery Act (‘FERA’) ...7
v

FERA § 4(b)(2)(A)(ii)

7,10

New Jersey P.L. 2009 c.112 (S735, 2R)

16

N.J.S.A. 30:4-27.1 etseq

8, 10,16,18

N.J.A.C. 10:31

16, 19

NJ. Rev. Stat. § 30.4-27.1 et seq

3,10,19

N.J.S.A. 30: 4D-let seq

18

N.J. Code § 2A:32C sections 1 through 15 and sections 17 and 18 [C.2A:32C-1 through
C.2A:32C-17] or the New Jersey False Claims Act (NJFCA)
18
N.J.S.A. 30:4-24.2c

5

N.J.S.A. 30: 4-27.2h and.2i

17

Restatement (Second) of Torts § 35 (1965)

12,21

N. J. Court Rule: 4:74-7

3,8,17

Fed. Rule of Civ. R 56 (a)

31

Fed. Rule of Civ. P. 12.......
OTHER AUTHORITIES
Judge’s Quick Guide to New Jersey ’Involuntary commitment Code and
Related Rule of Court (2014 Revisions) August 2015 Update................
th
International Classification ofDiagnosis (I CD) 10 Revision

31

3
4

The U.S. Dept, ofJustice Archives, 932 Provisions For The Handling of Qui Tam
Suits Filed Under The False Claims Act................................................................ 13,30
Miscellaneous Reference
Congress’ 2005 Deficit Reduction Act
26
THE PARTIES
Pro Se plaintiff, Zoe Ajjahnon has the address, 110 Chestnut Ridge Rd., Montvale, NJ
07645; Ph.: 551-270-3966
Defendant, St. Joseph’s University Medical Center is one of the healthcare services
providers of St. Joseph’s University Medical Centre. Instant emergency room (ER) is
located at this facility: address: 703 Main Street, Paterson, NJ 07503; Ph.: 973-754-2000
vi

Defendant, Robert Wood Johnson Barnabas Health, Inc. / RWJ Barnabas Health, Inc.,
announced its formation on March 31, 2016 from a merger of St Barnabas Medical
Center and RWJ University Hospital Hamilton. In 2006 St. Barnabas paid $265 million
dollars in penalties from a qui tarn False Claims Act suit. RWJ Hospital Hamilton, in
2010 paid the government $6.3 million dollars for similar charges. The new corporation
is registered a not-for-profit entity. It is a network of several hospitals that provide
healthcare services in New Jersey to approximately 5 million people or 14 the State’
population. Clara Maass Medical Center, at 1 Clara Maass Drive, 1 South Annex Unit,
Belleville, NJ 07109 ; Ph.: 973-450-2000 is the corporation’ short term care facility
provider of this case. RWJ Barnabas Health, Inc. gives variably two corporate addresses,
950 Old Short Hills Road, West Orange, Essex County, N.J. 07052; Ph.: 973-322-4328
and 2 Crescent Place, Oceanport, Monmouth County, N.J. 07757; Ph.:732-923-8000
RELATED ACTION
On 31 st December 2020 plaintiff petitioned the Executive Office of the President for an
Executive Order suspending defendant, RWJ Barnabas’ Short Term Care services and for
the state of NJ direct oversight of defendant, St Joseph’ Screening services, pending the
outcome of a government appointed task force assessment of the significant risk to public
safety posed by their respective healthcare services.
The request further suggested the institution of neutral, independent physicians to
provide the second of the requisite two certifications for involuntary commitment;
reasoning, government funded Medicaid would be less likely defrauded in this measure,
since, like a private health insurance provider, Government money would not be spent in
costly treatment of a false diagnosis. Looking at cancer for example, an oncologist could
falsely diagnose for costly treatment, there is a measure where the oncologist treat cancer
only after it has been diagnosed by another physician.
The 12/31/2020 EO request was further made of the Executive Office of the New
Jersey State Governor on 2nd February 2021.
Case No.:
In The Supreme Court of The United States
Zoe Ajjahnon, Plaintiff-Petitioner
v.
St. Joseph’s University Medical Center
And
RWJ Barnabas Health, Inc., Defendants - Respondents
On Petition for Writ of Certiorari to the Third Circuit Court of Appeals
PETITION FOR WRIT OF CERTIORARI
Plaintiff respectfully petitions the Court for a writ of certiorari to review the judgment of
the U.S. Third Circuit Court of Appeals.
Vll

OPINIONS
There are no less than two opinions from the Third Circuit in this matter. They are both
of them unpublished. On November 27th 2020 the Thircl Circuit entered a judgment
dismissing the action. (App.B) A Dec. 28th 2020 petition for Panel and En Banc Rehear
was partially granted. The En Banc was denied, the Panel granted on 12/28/2020 and
returned the opinion also on 12/28/2020. (App.A) The court’s argument disturbed nothing
of the 11/27/2020 opinion except for removing a factual error, the fabrication of an arrest
put in the first opinion, and clarified for the two FCA claim diagnoses as opposed to one
argued in the 11/27/2020 opinion.
The District’ dismissal of the case erroneously argued it is a qui tam matter on behalf
of the government’s damages and as pro se may not proceed. It adopts the language from
an un-filed/ undocumented letter purporting to be from the U.S. Dept, of Justice warning
of intent to decline intervention adding with emphasis that “our filing will also suggest
that the court dismiss your False Claims Acts Claims” (11/22/2019) (App. F-l, 43 a) and
the department’ subsequent notice of declination (1/2/2020) (App. F-2, 44a - 46a). Both
these U.S. DOJ letters to the District are specious. The Complaint was sent to the US
Attorney General’s (AG’ )via email on 8/20/2019 (App. I, 155a) and also via regular US
mail. The action was never filed as a qui tam matter, under seal and in accordance with
31 U.S.C. § 3730(b)(2) as the District, quoting the U.S. DOJ letters, holds. In fact, the
complaint appears never to have been properly filed, in any format, at the US AG’ Office.
Plaintiff has had no communication from that office of the email nor of the regular mail
received on 8/29/19 (Mail Room ID # 4323865) when the action was sent to the Civil
1

Division of the US Attorney General’s office. The complaint’s ‘service’ on the U.S.
Attorney’s Office / DOJ in Newark comes with high irregularities. The office appears not
to have any record of it and the only communication from that office are these two
specious letters that bear no indiction (such as a filing ID# / Reference #/ Case #) of the
case being filed at the DOJ’. The action strenuously denies that it is in pursuit of
Government damages and specified this for the Appeals Court’ review. In addition to this
legal error, as argued on Appeal, the district’s significant factual errors were also cited for
review. The opinions of the Third Circuit are practically verbatim the District’ entered on
6/28/20. (App. C)
JURISDICTION
Jurisdiction was invoked under 28 U.S.C. § 1331 in the district court for the district of
New Jersey and as of right to appeal in the Third Circuit under 28 U.S.C. §1291. The
jurisdiction in this Court is invoked under 28 U.S.C. §1254(1)
CONSTITUTIONAL AND STATUTORY PROVISIONS
This action comes under the Constitution’s Fourteenth Amendment providing, “no state
[shall] deprive any person of life, liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal protection of the laws” due process
privileges guarded in U.S. Codes of Title 42 section 1983 where these grants were
trespassed in the False Claims Acts statutes, 31 U.S.C. §§ 3729-3733.
STATEMENT OF CASE
. This case began with a call made by a caller with a history of making such false police
reports to the Paterson Police Department of a threat made by plaintiff, and concerns
2

defendant, the screening services of St. Joseph’s Medical Centre claim of plaintiff’s need
of involuntary commitment / involuntary commitment to treatment at co-defendant’, RWJ
Barnabas short term care facility, at Clara Maass. The commitment was effected without
the standard psychiatric evaluation and absent informed consent. In fact, in round denial
of all statutory regulations for such deprivation of liberties.
Where N.J. Rev. Stat. § 30.4-27.1 et seq and related Rule of Court Rule 4:74-7 govern
‘in cases where an individual is alleged to be mentally ill and is in need of involuntary
treatment (whether on an inpatient or outpatient basis) to avert danger to self, others, or
property’ {Judge ’ Quick Guide to The New Jersey Involuntary Commitment Code and
Related Rule of Court, (2014 Revisions) August 2015 Update) the regulations’ first
requirement for a psychiatric examination to determine the presence of a mental illness
was not done by the screening service. The psychiatrist at no point questioned, evaluated,
examined plaintiff for the presence of a mental illness. The services’ psychiatrist
concluded a mental illness without performing a psychiatric examination. The screening
service’ diagnosis is based on no presenting / history of symptoms of the (/an) alleged
disorder and is a matter of fabricated certifying statements, such as thoughts of delusion
and fear/paranoia completely unknown- quite novel to plaintiff. For instance, plaintiff
was informed from the screening service’ record that she is paranoid of the email and
telephone, and from co- defendant’ the short term care facility (STCF) that this dread is
as to technology in general, App.I, 171a and 188a respectively, but see the false certifying
statements of defendants in their entirety, 161a-178a, the screening service’ and
3

185a - 203a, the STCF’. These statements are each and every one of them false / untrue /
quite unknown to plaintiff and actually denied where asked at the STCF in that
defendant’s sham psychiatric evaluation.
The screening services manufactured certifying statements based its false diagnosis of
Bipolar disorder in the absence of the qualifying clinical manifestation of depression and
mania/hypomania episodes (and that having cycled at least once, International
Classification ofDiagnosis 10th Revision ) compounds defendant’s irregularities to
falsely claim certification of the second requirement, that is, this mental illness causes the
individual to be dangerous to self, others or property. Having not examined plaintiff for
the presence of a mental illness, trying for the ‘clear and convincing’ facts that this illness
causes the person to be dangerous was likewise not done. The screening services relies on
a police record of a ‘knife threat’ by plaintiff. Said record carries nothing of a knife
threat, nor a threat of any kind for that matter; in fact, nothing of danger to self, others or
property. It is appended at Appendix I and designated Exhibit 3 of the complaint’
attachments (159a - 160a). Further statutory guides were dismissed by the screening
services in pursuit of the requisite court order for involuntary commitment. Denial of due
process that effected the false imprisonment of plaintiff at co-defendant’ the STCF
includes denial of informed consent. At no point was plaintiff given the choice for
voluntary treatment, as regulations/standards call for. Moreover, to plaintiff’s direct
question to the psychiatrist of why she is being committed, the screening psychiatrist
literally ignored the question. She made no reply whatever. Plaintiff was not given any
4

forms to sign. Plaintiff was roundly denied informed consent.
This action argues aggregated violations of due process guarantees afforded in the
standards for institutionalizing an individual at co-defendant, the short term care facility,
where that psychiatrist deliberately falsified plaintiff’s denial of the fabricated certifying
statements from the screening service. The STCF RWJ Barnabas’ Clara Maass would
then add a second mental illness, that of Schizophrenia with defendant’ full and explicitly
stated knowledge of the absence of determinants / clinical manifest / symptoms of this
diagnosis; expressly, plaintiff’ lack of a psychiatric history/having never manifested the
clinical determinants for this (nor any other) mental illness. The STCF psychiatrist spoke
to this when he voiced his doubt about the bipolar disorder in the first place, calling it a
“tentative” diagnosis whereas there is “no psychiatric history” and noted other factors
like plaintiff’ age coming against the presence of a mental illness absent an existing
psychiatric history.
RWJ Barnabas FCA claim diagnosis of schizophrenia is significant for being able to
force unnecessary medical treatment. The individual presenting with/having a history of
schizophrenia, as to guides, is deemed mentally incompetent to refuse medication.
Defendant may therefore force medication if this specific disease is present since the
mere presence of a mental illness does not equate mental incompetence. N.J.S.A.
30:4-24.2c
In what it calls its ‘two-step process’ where the treating psychiatrist’ diagnosis is
‘seconded’ by their purported ‘independent’ psychiatrist, defendant RWJ Barnabas
Health, Inc. effects this barbarous forced medication of Haloperidol (/Haldol, a very
5

C'

potent anti-psychotic/psychotropic sedative with serious longterm side effects).
Discussing concerns over forced medication by defendant’ 2-step, plaintiff was informed
by the STCF staff that this ‘seconding’ psychiatrist has been the only physician engaged
in this duty - ever- at defendant’s Clara Maass.
The STCF forcibly administered Lithium for the fabricated diagnosis of bipolar
disorder from the screening services. Plaintiff suffered a rare cardiac event from that
drug. It was immediately discontinued. The forced medication for schizophrenia
continued however. This forced treatment at the STCF is done via routinely having two
nurses present to force the drugs, one prepared to “hold down” the person while the other
inject the drug if refused. There is a pronounced inability to refuse Haldol at defendant,
RWJ Barnabas’ Clara Maass. The Court appreciates that Haldol is standard treatment for
schizophrenia, the diagnosis necessary to force medication in the first place.
The FCA claims of this case are substantial for due process violations. This action is in
pursuit of remedial damages sustained by plaintiff. Both plaintiff and the government
were billed secondary these FCA violation, pursuant 31U.S.C. § 3730 (b)(1) the
government was informed by plaintiff of defendants’ FCA claims. The government
declined participation in the case.
REASONS FOR GRANTING THE PETITION
I. The Court’s Review is Sought to Give Direction Resvectins Federal Courts Arbitrary
ADnlicabilitvjrf the FCA Claim as Defined in FERA 2009 - codified in 31 U.S.C. 88
3729-3733.
The Court’s review is necessary to provide standard for the scope of application of the
6

FCA Claim grounds to a nongovernment plaintiff pursuing individual damages or
plaintiff’ portion of the false claim as defined, 31 U.S.C. § 3729 (b)(2)(A) where the False
Claims claim is :
“means any request or demand, whether under a contract or otherwise, for money or
property and whether or not the United States has title to the money or property, that—
(ii) is made to a contractor, grantee, or other recipient. (Emp. added) if the money or
property is to be spent or used on the Government’s behalf or to advance a Government
program or interest, and if the United States Government—
(I) provides or has provided any portion of the money or property requested or
demanded; or
(II) will reimburse such contractor, grantee, or other recipient for any portion of the
money or property which is requested or demanded;”
In 2009 Congress passed sweeping reforms to the False Claims Act that expanded
government fraud protection in the Fraud Enforcement and Recovery Act, Pub. 111-21,
123 Stat. 1617 (2009) “FERA”. FERA’ reforms of FCA that allows private citizens to
sue on behalf of the government broadened the definition of the FCA claim to include
defendant liability to “Tanlother recipient of the fraudulent ‘demand for money to the
government ... if the money .. .is to be spent or used on the Government’s behalf or to
advance a Government program or interest and if the United States Government—
provides or has provided any portion of the money or property requested or demanded;
... . FERA ft 4(b) (2) (A )fii).The Third Circuit dismissed this grounds for the complaint,
holding rather to the District’s opinion that the action is a qui tam matter in pursuit of
percentage of Government recovery. (Apps. A, B, and C, la -14a).
The first of the two issues on appeal asked, ‘are the FCA laws’ sufficiency limited to
recovering government funds?” (Appeal, Statement of Issues, 16a)
7

The question was avoided, the circuit court simply regurgitated the district’ opinion
that “erroneously interpreted plaintiff’s action as in pursuit of government damages, or to
be specific, percentage of government damages.”
The lower courts’ denial of presentation/statement of the claim, holding the action a
qui tarn matter in pursuit of percentage of government recovery, is easily refuted prima
facie in the facts of the case and relevant laws - Congress definition of the FCA Claim at
31 U.S.C. §3729 (b)(2)(A) gives plaintiff footing to vindicate her own cause as argued in
the Appeal (id. 21a-28a) and the elements for defendant FCA violation of, 1) a false
statement or engages in a false course of conduct, 2) made or carried out with knowledge
of the falsity, 3) that was material, and 4) involved a claim, (request or demand for money
or property from the government [that under FERA reforms the claim is where the
government provides a “portion” of the money demanded, as explicitly of Medicaid, the
Exs.12, 215a-223a, or the FCA claim advances defendants government programs of the
respective, screening services and STCF]), are substantiated in the Complaint and
supporting Exhibits (69a - 226a).
The State of NJ inflexibly holds that the question of involuntary commitment is a
legal matter, (Matter of Commitment D.M. Supra 313 N.J. Super. At 450) and sets out
State law of ‘clear standards and procedural safeguards for such deprivation of liberties’
in N.J.S.A. 30: 4-27.1 et seq and Court Rule 74-7. Relying further on 31 U.S.C. §§3729
(b)(3)(4) defining defendants obligation under these statutes and the materiality of their
noncompliance with government regulations as they influence the demand for money
8

made to plaintiff - the recipient/victim of defendants misrepresentations - as well as - co­
victim of the demand for money to the government based in FCA violations, support this
action’s FCA standing and plaintiff’ independent pursuit of individual damages suffered.
Government regulations were all of them violated by defendants in their government
funded and regulated programs. These misrepresentations were material for defendants
false claims / demand for payment to plaintiff and the government^ App. I, Exhibits of
the bills per se, 208a -226a). Petitioner argues that FERA (2009) in expanding the claim
element expands too defendant liability and plaintiff standing under this statute. The
Court’s review is sought to give clarity here, and also as to the de facto absolve of
defendants liability by the 3rd Cir. court’ dismissal.
II. The Court’s Review is further necessary in that the FCA Claims arose from due
process violations. and the Third Circuit9 Instant Opinion has Significantly
Departed from Established Consistent Court Teachings on Federally Protected Due
Process Laws and Grants of the Constitution in 42 U.S.C.S1983
This action maintains that the FCA element of materiality is a function of defendants’
due process violations. This argument goes to another change since FERA 2009 and to
petitioner’ question of due process violations substantial for defendants FCA illegalities,
where the FCA liability for defendant/the healthcare provider is not merely in the
disregard of government regulations but rather where those acts result in the defendant’/
provider’ knowing falsification of a fraudulent claim for payment to the government [and
other recipient of this demand for money]. United States ex. rel. Clausen v. Lab. Corp. of
Am., 290 F. 3d. 1301, 1311 (11th Cir. 2002) and United States v. Lang, 251 F. Supp. 3d
971, 975 (E.D.N.C. 2017). (See, Smith Pachter McWhorter FCA Practice Guide 2019.)
9

Therefore, defendants’ FCA liability to plaintiff - “the other recipient of the demand for
money/bill [shared by the government]” - are not just as to the fraudulent claim/demand
for money but are also for the acts that resulted in /produced defendants’ fraudulent
claims - the due process violations of instant complaint. To state the obvious, it is not the
government that is directly / immediately harmed by the substance of the defendants’
misrepresentations or false certifications, it is the ‘other recipient’ of the healthcare
provider’s / defendants’ false claims to the govemment/for the government program.
FERA 2009 expansion of the False Claims Act in FERA §4(b)(2)(A)(ii) give standing to
plaintiff, the “other recipient” to directly pursue the direct harm (to plaintiff) of
defendants FCA liabilities.
Where defendant’ due process violations supported in, among other irregularities:
‘plaintiff’s substantiated claims of round noncompliance with government standards for
involuntary commitment set in N.J.S.A. 30:4-27.1 et seq, gross intentional medical
misconduct, and numerous counts of violations of federally protected civil rights at
defendants’s government funded/run healthcare programs are cognizable for False Claims
Acts liability claims as defined in the Fraud Enforcement and Recovery Act (FERA)
2009 amendments of the False Claims Act, the third circuit’ affirmation of the [district’]
dismissal that denied FCA standing denied also due process grounds, holding, defendants
escape liability whereas they are ‘private’ not ‘state’ actors.
Court teachings affirm that the FCA ‘is not a vehicle to punish garden-variety
breaches of contract or regulatory violations’ and speaking to liability explained, under
10

FCA ‘the fact-specific inquiry of materiality looks to the effect of the likely or actual
behavior of the recipient of the alleged misrepresentation.’ Universal Health Servs., Inc.
v. United States and Commonwealth ofMass, ex rel. Escobar, 136 S. Ct. 1989 (2016).
Defendants, St Joseph’ and RWJ Barnabas - government healthcare programs for
the mentally ill of, respectively, a screening service and a screening outreach program here, a short term care facility for involuntary commitment/ involuntary commitment to
treatment, violated statutory guides governing their respective services in pursuit of the
mandated court order for service eligibility, (App.I, 204a-206a, the court order). The false
certifying statements are, literally, defendants respective certifications to the court for the
requisite court order. They are appended at App.I, 161a - 178a FCA false certifying
statements of defendant, St. Joseph’s, the screening services, and 185a -203a, FCA false
certifying statements of defendant, RWJ Barnabas, short term care facility (STCF).
Defendants FCA liability attaches in their respective expressed false certifications for
the court order, false claims arising from due process violations/ noncompliance with
government regulations conditional for payment. United States ex rel. Hobbs v. Medquest
Assoc., Inc., 711 F. 3d 707, 714 (6th cir. 2013). Defendants due process irregularities led
to the false imprisonment of the involuntary commitment, forced unnecessary
medication, and the other violations of the complaint material to the false claim/demand
for money made to plaintiff (the direct/primary recipient of defendants misrepresentation)
and the Government.
The complaint maintains a distinction between primary and secondary harm (not
11

liability) of defendants FCA violations. Reasoning, damages of the FCA claim may be
distinguished as specific and separate for respective recipient(s) of the claim. The “other
recipient” of the demand for money (/the FCA claim made on ‘other recipient’ and the
government) may suffer unique damages from defendant FCA violations, harm that for
the ‘other recipient’ of the FCA claim may not be limited to the monetary demand
whereas defendant false claims conduct material for the FCA claim is directly perpetrated
on this ‘other recipient’, not the Government.
To speak to the FCA violations informing plaintiff’ false imprisonment, defendants
false certification in violations of statutory arid constitutional principles material for the
FCA claim (the demand for money to the government and plaintiff) of the bills generated
from the false imprisonment, speaks to the component of ‘intent’ (i.e. with purposeful
knowledge) to confine of this claim, Restatement (Second) of Torts §35 (1965); and it is
understood that the false statements arising from defendants due process violations or
government irregularities conditional for the money demanded of both the Government
and plaintiff, cause direct or primary harm to plaintiff as distinguished from the
secondary deimage shared by both recipients of the FCA claim. The demand for payment
made to the Government and plaintiff are secondary defendants misrepresentations. The
Government’ secondary damages are not specific for false imprisonment, forced
medication, emotional trauma, etc. of defendants misrepresentations/ FCA conduct;
however, defendant liability attaches for both Government and ‘other recipient’ of the
fraudulent demand for money generated from defendants FCA violations.
Wherefore, pursuant 31U.S.C. § 3730 (b)(1) providing, “A person may bring a civil
12

action for a violation of section 3729for the person and for the United States
Government.” (emp. mine) plaintiff sent this case on 8/20/19 (the same date as filing at
the District) to the US Attorney General via email and regular mail date received, 8/29/19
(App.I, 155a, cover letter to US OAG of Aug. 20 2019), holding at No Point that
government participation was either necessary or sufficient to pursue remedy of
plaintiff’s (/personal) damages, wherefore it was not filed/submitted ‘under seal’ as
required at 31U.S.C. § 3730 (b)(2) (duly noted, if misconstrued in the District’s opinion,
App. C, 13a) of a plaintiff acting on behalf of the Government, that is, an action in
pursuit of a share of Government recovery. Where, 28 U.S.C. §1654 allows a litigant to
represent him/herself in a U.S. court of law, plaintiff’s action may proceed pro se
therefore. This was expressly stated on Appeal (id. 22a - 28a). In fact, the issues on
Appeal manifestly substantiating ‘this action is in pursuit of plaintiff’s damages, not the
Government’s’, is further supported in the fact that the district’s opinion is ‘bald rhetoric’
- absent frame of legal authenticity of the case having been filed as a qui tarn matter in
pursuit of percentage of Government damages. The statement of claims come under both
the False Claims Act, 31 U.S.C. §§ 3729-3733 and civil grants of 42 U.S.C. §1983 and
§1981 (App.I, 69a) and filing or, more accurately, an attempt to file (there is no
documentation that it was actually filed at the Civil Division it was sent, just
acknowledgment that it was received at the Mail Room, #4323865) at the US Attorney
General was not done under seal with ‘substantial material evidence for recovery of
Government damages’ and served also on the US Attorney in accordance with set
standards of a qui tam pursuit. (See, The United States Department ofJustice Archives
932 Provisions For The Handling Of Qui Tam Suits Filed Under The False Claims Act)
13

Unavailing in the 3d. Cir. is the teaching from United States ex. rel. Brown v. Celgene
Corp., 226 F. Supp. 3d, 1032, 1044-45 (CD. Cal. 2016), “Statutory requirements may be
so central to the functioning of the government program that noncompliance is material
as a matter of law.”; notwithstanding this court of appeals is not unaware of the centrality
of defendants due process violations to the complaint’s standing, and defendants liability.
In fact, in applying Escobar’s standard in implied certification liability, the third circuit
worked the ‘misrepresentation for government payment’ prong to dismiss defendant
liability holding that the ‘mere’ request for payment is insufficient for liability to attach in
the absence of ‘specific representation’. United States ex.rel. Schimelpfenig v. Dr. Reddy’
Labs. Ltd., 2017 WL1133956 (E.D. PA., Mar., 2017)
The third circuit’ dismissal of this action dismissed also the ‘specific representations’
of the false claims. The opinion that reiterated the district’s statements (added one
falsehood of its own that was corrected upon the spurious rehear), significantly, left
uncorrected the false statement by the district that plaintiff alleges a social worker
provided the false diagnosis for the screening services court order, this even after plaintiff
expressly denied this, pointing to the standard for a psychiatrist (or other physician) to
personally examine for, and determine the presence of, the/a mental illness (App. D
Appeal, 26a & App. E, Petition for En Banc and Panel Rehear, 32a-33a) - A significant
manipulation of the record since, to hear plaintiff’s denial of the social worker giving the
false diagnosis, is to admit the fact that defendant violated statutory guides respecting - as
labored - the standard for a psychiatric evaluation. The denial of the standard psychiatric
evaluation compounded defendants subsequent noncompliance with standard regulations
14

for the involuntary commitment / commitment to treatment. Due process liability is
substantiated for defendants - government healthcare programs whereas the psychiatrist’s
evaluation must assess for the ‘grounding’ mental illness (a mental illness must be
present and that mental illness must be the cause for dangerousness; further, no less
restrictive setting can appropriately treat the dangerously insane person) - the denial of
this standard informs the false certifying statements and was conditional for the demand
for payment - the false claims. This instituted the false imprisonment where defendant
the STCF, propagated its own set of due process rights and FCA violations of the
aggregate harm to plaintiff.
Under the statutory provisions of the False Claims Act, the complaint substantiated,
1.) FALSE CLAIMS ACTS OF INTENTIONAL SIGNIFICANT INCOMPETENCE OF
MALICIOUS MEDICAL MALPRACTICE CONSTITUTES SUBSTANTIAL
VIOLATIONS OF PROCEDURAL AND SUBSTANTIVE DUE PROCESS LAWS AT
ST. JOSEPH’S MEDICAL CENTER, THE SCREENING SERVICES. THIS LED TO
THE FALSE IMPRISONMENT OF PLAINTIFF AT CO-DEFENDANT’S
INVOLUNTARY COMMITMENT FACILITY AND GROUNDS PLAINTIFF’S
LIABILITY CLAIMS UNDER THE FEDERAL FALSE CLAIMS ACT PROVISIONS
OF 57 U.S.C. §§3729- 3733 AND CONSTITUTIONALLY PROTECTED CIVIL
RIGHTS OF 42 US. C. §1983 and §1981
And
2.) DEFENDANT RWJ BARNABAS HEALTH CONTINUES THE HEALTH CARE
PROVIDER’S PRACTICE OF FRAUDULENTLY OBTAINING MONEY FROM
GOVERNMENT FUNDED PROGRAMS AT ITS SHORT TERM CARE FACILITY OF
THIS COMPLAINT, CLARA MAASS. DEFENDANT’S FALSE CLAIMS CONDUCT
IS SUBSTANTIAL FOR THE SERVICE’ VIOLATIONS OF CIVIL RIGHTS,
DISMISSAL OF DUE PROCESS, PERPETRATION OF INTENTIONAL MALICIOUS
MEDICAL MALPRACTICE OF A FALSE DIAGNOSIS FOR THE PURPOSE OF
FORCING MEDICATION, SUBSEQUENTLY FORCED MEDICATION, FALSE
IMPRISONMENT, AND VIOLATED OTHER LAWS SUCH AS DELIBERATELY
PREVENTING PLAINTIFF FROM SPEAKING TO THE COURT. DEFENDANT
MADE BILLING CLAIMS TO PLAINTIFF AND GOVERNMENT FUNDED
15

PROGRAMS FOR THESE FRAUDS PER SE AND FOR THE TIME OR DURATION
OF THE FRAUDS , I.E. EACH DAY PLAINTIFF WAS SUBJECT TO THESE FALSE
CLAIMS ACTIONS AT THE FACILITY (Argued in the Complaint, App. I, 107a-146a)
The lower court’s opinion constraints for grounds under FCA provisions for this action
are groundless as a matter of law, as argued; the opinion’ holding that defendants are not
‘state actors’ and escape therefore 42 U.S.C.§1983 liability, is likewise futile under
consistent Court teachings. Defendants, the screening services, St. Joseph’s, and the
involuntary commitment mental health service provider, the short term care facility, RWJ
Barnabas, are acting in behalf of the State in government funded State established
programs, NJA.C.10:31 (NJ Administrative Codes for Screening and Screening
Outreach Program) that are regulated by State laws, N.J.S.A. 30.4-27.1 et seq, as the
complaint asserts.
The State of New Jersey declares in P. L. CHAP.112 (Aug. 11,2009, S. 735) AN ACT
concerning involuntary commitment to treatment and amending and supplementing
chapter 4 of Title 30 of the Revised Statutes and amending P.L.1991, c.270. BE IT
ENACTED by the Senate and General Assembly of the State ofNew Jersey:
1. Section 1 of P.L.1987, c.116 (C.30:4-27.1) is amended to read as follows:
C.30:4-27.1 Findings, declarations.
1. The Legislature finds and declares that:
“ a. The State is responsible for providing care, treatment and rehabilitation services
to mentally ill persons who are disabled and cannot provide basic care for themselves or
who are dangerous to themselves, others or property; and because some' of these mentally
ill persons do not seek treatment or are not able to benefit from voluntary treatment
provided on an outpatient basis, it is necessary that State law provide for the voluntary
admission and the involuntary commitment to treatment of these persons as well as for
the public services and facilities necessary to fulfill these responsibilities.
b. Because involuntary commitment to treatment entails certain deprivations of
liberty, it is necessary that State law balance the basic value of liberty with the need for
safety and treatment, a balance that is difficult to effect because of the limited ability to
predict behavior; and, therefore, it is necessary that State law provide clear standards and
procedural safeguards that ensure that only those persons who are dangerous to
themselves, others or property, are involuntarily committed to treatment.
16

c.

In addition it is the policy of this State that the public mental health system shall be
developed in a manner which protects individual liberty and provides advocacy and due
process for persons receiving treatment and insures that treatment is provided in a manner
consistent with a person's clinical condition.”
The “ necessary ... State law providing] clear standards and procedural safeguards that
ensure that only those persons who are dangerous to themselves, others or property, are
involuntarily committed to treatment” were each of them defied by the defendants of this
case in due process violations in perpetrating the False Claims Acts claims of this
complaint.
The complaint argues: Federally protected due process guarantees scrupulously guard
procedural and substantive requirements for the legal standard for “clear and convincing”
i

evidence to institute involuntary commitment. In Addington v. Texas, 441 U.S. 418; 99 S.
Ct. 1804; 60 L. Ed.,2d 323 (1979) a unanimous court concluded that the Fourteenth
Amendment due process provisions require clear convincing standard of proof in a state
involuntary commitment proceeding. The State of NJ holds to this principle. In MM,
384 N.J. Super 313, 894 A.2d 1158 (A.D. 2006) the court’s adjudication invoked State
guide, Court Rule 74-7(b) that reads in part ‘a person is in need of involuntary
commitment when there exists clear and convincing evidence that (1) the patient is
mentally ill, (2) that mental illness causes the patient to be dangerous to self or others or
property as defined in N.J.S.A.30:4-27.2h and.2i, (3) the patient is unwilling to accept
appropriate treatment voluntarily after it has been offered, (4) the patient needs outpatient
treatment or inpatient care at a short term care or psychiatric facility or special psychiatric
hospital and (5) other less restrictive alternative services are not appropriate or available
17

to meet the person's mental health care needs. [Where] inpatient treatment is
recommended, the [clinical and screening] certificates shall indicate that the patient is
immediately or imminently dangerous to self, others or property or outpatient treatment is
inadequate to render the patient unlikely to be dangerous within the reasonably
foreseeable future. In the matter of D.C. 281 N.J. Super. 102, 656 A.2d 861 (A.D. 1995)
reversed 146 N.J. 31,679 A. 2d 634 (1996) the State affirmed that, “there can be no
deviation from strict statutory procedures for involuntary commitment”. This holding by
the court was upheld in dR. 390 N.J. Super 523,916 A.2d 463 (A.D. 2007), as a matter of
constitutional rights. The legal standards of those requirements are set forth in New
Jersey State law, N.J.S.A.30:4-27.1 et seq., further guarded in state statutes, N.J.S.A. 30
section 4D -let seq, and [NJ code] § 2A:32C Sections 1 through 15 and sections 17 and
18 [C.2A:32C-1 through C.2A:32C-17] / New Jersey False Claims Act (NJFCA essentially, New Jersey’s adoption of the Federal FCA, 31 U.S.C. §§ 3729-3733 ), among
other guards, (from Complaint, App. I, 107a-110a)
The Third Circuit’s opinion runs contrary to the Court’ consistent teaching of
defendants’ due process liabilities in these FCA violations. The opinion’ reliance on
Lugar v. Edmondson Oil Co. Inc., 457 U.S. 922 (1982) and the third circuit’ own Benn v.
Universal Health System, Inc., 371, F. 3d 165, 174 (3d. Cir., 2004) to argue dismissal of
defendants’ liability as “private actors” not “state actors” [and] even if defendants
irregularities were done with state aid, the lower court’s argument runs, liability does not
attach under §1983 since the alleged violations are not actions of the State. This opinion
is unfounded in established and consistent Court teaching of 42 U.S.C. §1983 liability
18

where N.J. Rev. Stat. § 30.4-27.1 et seq clearly show New Jersey State laws govern
defendants’ action of defendants State programs, the Screening services of defendant, St.
Joseph’ and the Screening Outreach program (the STCF) of defendant, RWJ Barnabas
(N.J.A.C. 10:31) roundly supporting that defendants violations are actions of the state
and liable under §1983.
The third circuit’ dismissal is at variance with their own previous ruling moreover. From
Benn, “To establish a claim under §1983, Benn must show that the defendants were, 1)
state actors who 2) violated his rights under the Constitution or federal law. Flagg Bros.,
Inc. v. Brooks, 436 U.S. 149, 155, 98 S.Ct. 1729, 56 L.Ed.2d 185 (1978). That is,
“plaintiff must allege the violation of a right secured by the Constitution and laws of the
United States, and must show that the alleged deprivation was committed by a person
acting under color of state law. Parratt v. Taylor, 451 U.S. 527, 535(1981).” “The
traditional definition of acting under color of state law requires that the defendant in a §
1983 action have exercised power possessed by virtue of state law and made possible
only because the wrongdoer is clothed with the authority of state law." United States v.
Classic, 313, U.S. 299, 326 (1941); and, "In cases under §1983, 'under color’ of law has
consistently been treated as the same thing as the 'state action’ required under the 14th
>

Amendment." Rendell-Baker v. Kohn, 457 U.S. 830, 838, 102 S. Ct. 2764, 73 L.Ed. 2d
418 (1982); see also [the 3rd cir.’] Dluhos v. Strasberg, 321 F. 3d 365, 374 (3d Cir. 2003).
The third circuit misapplies Lugar v. Edmondson Oil Co., supra, since the Court made
clear that if a defendant's conduct satisfies the state-action requirement of the Fourteenth
Amendment, "that conduct [is] also action under color of state law and will support an
19

action under §1983 ." Id., at 935. In such circumstances, the defendant’s alleged
infringement of the plaintiff’s rights is ‘fairly attributable to the State’. Lugar, 457 U.S.,
at 937. (App. E, 36a-37a, Petition for En Banc and Panel Rehear)
Defendants actions are actions of the Sate and their FCA violations were ‘under color’
of law. Further, even were the Court to dismiss NJ laws substantiating “state action”
\

herein and the teachings of ‘state actors’ due process liability of defendants, the third
circuit’ ‘private actors’ leaning for due process liability escape cannot prevail in the
Court’s: “ We have treated a nominally private entity as a state actor when it is controlled
by an "agency of the State," Pennsylvania v. Board of Directors of City Trusts of
Philadelphia, 353 U.S 230, 231 77 S.Ct. 806, 1 L.Ed.2d 792 (1957) (per curiam), when it
has been delegated a public function by the State, cf., e.g., West v. Atkins, 487 U.S. 42,
56, 108 S.Ct. 2250, lOlL.Ed. 2d 40 (1988)]; Edmonson v. Leesville Concrete Co., 500
U.S. 614, 627-628, 111 S.Ct. 2077, 144 L.Ed. 2d 660 (1991), when it is "entwined with
governmental policies," or when government is "entwined in [its] management or
control," Evans v. Newton, 382 U.S. 296, 299, 301, 86 S.Ct. 486, 15 L.Ed. 2d 373 (1966).
Defendants clinical certificates of false certifying statements - FCA yiolations of
dismissal of court standards for probative facts, clear and convincing evidence, that
effected the false statements for the necessary court order, are a matter of due process
violations in not performing the clinical examination, procedurally at the screening
services and substantively at the STCF. In Poe v. Ullman, 367 U.S. 497, 540 541 (1961)
Justice Harlan for the dissent argues that constitutional guarantees of due process are not
limited to guarding procedural fairness, writing, “[due process] in the consistent view of
20

this Court has ever been a broader concept.... Were due process merely a procedural
safeguard it would fail to reach those situations where the deprivation of life, liberty or
property was accomplished by legislation..and goes on to develop that due process
guarantees are not confined to the mere ‘operation’ of legislation, they are much more
encompassing, meant to protect the substance of the freedoms they guard, the ‘enjoyment
of all three’; wherefore, the prerogative of due process safeguards against deprivation of
life, liberty or property are more far-reaching than procedural compliance.
Plaintiff was denied liberties. Both defendants’ False Claims Acts violations in the
fraudulent certifying statements for the required court order for involuntary commitment,
effected the false imprisonment of plaintiff.
The elements of false imprisonment are set forth in the Restatement, (Second) of
Torts, § 35 (1965):
An actor is subject to liability to another for false imprisonment if (a) he acts
intending to confine the other or a third person within the boundaries fixed by the
actor, and (b) his act directly or indirectly results in such a confinement of the
other, and (c) the other is conscious of the confinement or is harmed by it."
Plaintiffs damage claims are proper for “profound and dramatic” confinement
resultant deprivation of federal guarantees. “... involuntary commitment the
confinement of people who have committed no crime and have not in any way
violated the rules of our society is a profound and dramatic curtailment of a
person's liberty and as such requires meticulous adherence to statutory and
constitutional criteria. In fact, the United States Supreme Court has time and
again recognized this proposition that a great deprivation of liberty results from
involuntary civil commitment...” Restatement, (Second) of Torts, § 35 (1965); Fair Oaks
Hospital v. Pocrass, 266 N.J. Super, 140,628 A. 2d 829 (L.1993).
Plaintiff was denied informed consent. To the expressed request for the reason for
commitment, defendant, the screening services gave no reply. Plaintiff was specifically
denied the standard to ‘first refuse’ voluntary treatment/ a less restrictive setting. In this
21

FCA claims case that offer was never presented. Defendant, the STCF’ substantive due
process violations in its sham clinical evaluation also purposefully falsified the
statements of its certification to the court, even regarding those explicitly denied by
plaintiff and acknowledged by this defendant’ psychiatrist as not a part of plaintiff’s
[medical/mental] history (App.I, Complaint, 122a-146a ; Exhibit, 185a-203a)
Plain v. Flicker, 645 F. Supp. 898 (D.N.J. 1986) arguing among other issues, “The
Fourteenth Amendment of the Constitution provides in part that no state shall deprive any
person of life, liberty or property without due process of law; nor deny to any person
within its jurisdiction the equal protection of the laws. [And supports this complaint’s
remedy demand under] Title 42 U.S.C. § 1983 [that] provides a remedy for deprivations
of rights secured by the Constitution and laws of the United States when deprivation
takes place "under color of any statute, ordinance, regulation, custom, or usage, of any
State or Territory...." Defendants’ liability is further sustained under § 1981(c) of Title 42
and 18 U.S.C. § 242 that in this matter of intentional tort by healthcare service providers
(generally), the deprivation of constitutionally protected due process in expressed
violation of state regulations - under color of state statute and for the purpose of false
imprisonment conditional for defendants False Claims billing for government funds.
Where FCA claims (false claims for government insurance money) may apply to the
nongovernmental as well as government programs of healthcare services, this petition
advances the third reason for grant.
III. A Matter of National Importance Under Title 42 In The Interests of General
Public Health and Welfare
22

In addition to the federal provisions of 31 U.S.C. §§ 3729-3733 and Title 42 U.S.C. §
1983 of the foregoing respecting defendants government program, this action under 42
U.S.C. section 1981 pleads a further relief in the interests of general Public Health and
Welfare. The petition seeks standards in both government and nongovernment consumerprovider relationships in the healthcare industry. The FCA violations of this matter,
defendants FCA conduct is unfortunately not uncommon, and healthcare providers far top
easily prey upon the socio-economically disadvantaged for Government health insurance
money. This is a serious public safety risk. Learned from Escobar, FCA violations can
and do lead to death. Escobar ’ FCA action did not allege medical malpractice , this
complaint does and cites the recent statistic that medical malpractice kills a conservative
estimate of 400,000 people in the U.S. each year.
Public safety relief sought is specific for adjustments to existing measures that will
serve to better prevent institutional abuse of regulations for involuntary commitment
procedures, to check the ease with which the FCA claims substantiated in this matter may
continue by these violators, and that the due process violations herein were designed to
effect the FCA claims, such as forced false need for medication and that over routinely 20
days at defendant RWJ Barnabas, present serious medical / health risks to the victims of
the healthcare provider’s false conduct/the FCA Claims perpetrator.
Wherefore, the complaint pursues the following relief:
Where a screening service is used, the second certifying psychiatrist or other physician
must be a neutral party, that is, one not affiliated with either the screening services or the
short term care facility; funding is to be set for an on-call private physicians ‘per diem’
23

program to execute the second clinical certification. It is a proactive measure to prevent
the fraud in the first place. The screening service’ claim of the patient’s need for
involuntary commitment to treatment is impartially scrutinized. The STCF has the vested
interest of ratifying whatever the referring entity (/screening services) states, for
mercenary purposes and the advance of their own government funded program, an
independent physician - NOT affiliated with /paid by either provider, does not. The
proposal stresses here that this measure does not do away with the assessment within 72
hours of commitment at the STCF - rather, it amends for the clinical evaluation upon the
institution of the commitment to determine course of treatment during commitment,
rather than (as it is now abused in False Claims Acts violations) to conclude need of
commitment to treatment at the STCF’ service.
The Court considers that this complaint of False Claims frauds and abuse by both the
screening service provider and the STCF, both skilled FCA perpetrators, one perhapsmore
so. RWJ Barnabas Health, Inc.’ history evince combined penalties of over $270 million in
federal FCA penalties.
“Robert Wood John University Hospital Hamilton RWJBarnabas Health 65000 $0
$65,000 2009 20090910 healthcare-related offenses HHS civil monetary penalties Robert
Wood John University Hospital Hamilton (RWJ Hamilton), New Jersey, agreed to pay
$65,000 to resolve its liability for CMPs under the patient dumping statute. The OIG
alleged that RWJ Hamilton failed to provide a medical screening examination, stabilizing
treatment or an appropriate transfer for a mother and her newborn child who came to
RWJ Hamilton's emergency department for examination and treatment for a medical
condition, federal agency action HHSOIG Health & Human Services Department Office
of Inspector General civil New Jersey Hamilton USA New Jersey non-profit healthcare
services hospitals https://oig.hhs.gov/fraud/enforcement/cmp/cmp-ae.asp 207363 2589
Robert Wood Johnson Health Care Corp. RWJBarnabas Health 5800000 $0 $5,800,000
2015 20151030 government-contracting-related offenses False Claims Act and related
The Department of Justice reached 70 settlements involving 457 hospitals in 43 states for
24

more than $250 million related to cardiac devices that were implanted in Medicare
patients in violation of Medicare coverage requirements, federal agency action
DOJ_CIVIL Justice Department Civil Division civil New Jersey New Brunswick USA
New Jersey non-profit healthcare services hospitals https://www.justice.gov/opa/pr/
nearly-500-hospitals-pay-united-states-more-250-million-resolve-false-claims-actallegations 193677 2589 Robert Wood Johnson University Hospital Hamilton
RWJBarnabas Health 6350000 $0 $6,350,000 2010 20100319 government-contractingrelated offenses False Claims Act and related Robert Wood Johnson University Hospital
Hamilton, a New Jersey-based hospital, agreed to pay $6.35 million to settle allegations
that it fraudulently inflated its charges to Medicare patients to obtain larger
reimbursements from the federal health care program, federal agency action DOJ_CIVIL
Justice Department Civil Division civil New Jersey Hamilton USA New Jersey non-profit
healthcare services hospitals https://www.justice.gov/opa/pr/new-jersey-hospitalpay-635-million-resolve-allegations-inflating-charges-obtain-higher 194041 2589 Saint
Barnabas Corporation RWJBarnabas Health 265000000 $0 $265,000,000 2006 20060615
government-contracting-related offenses False Claims Act and related fraud Saint
Barnabas Corporation agreed to pay the United States $265 million to settle allegations
that it defrauded the federal Medicare program, federal agency action DOJ_CIVIL Justice
Department Civil Division civil New Jersey USA New Jersey non-profit healthcare
services hospitals https://www.justice.gov/archive/opa/pr/2006/June/06_civ_373 .html
207642 2589 Saint Barnabas Medical Center RWJBarnabas Health 113190 $0 $113,190
2010 20101231 employment-related offenses wage and hour violation Fair Labor
Standards Act federal agency action WHD Labor Department Wage and Hour Division
civil 1598333 New Jersey Livingston 07039 622110 622110: General Medical and
Surgical Hospitals USA New Jersey non-profit healthcare services hospitals March 7,
2017 download of a dataset posted by the Wage and Hour Division at https://
enforcedata.dol.gov/views/data_summary.php Date and year are the Findings End Date in
the dataset posted by the Wage and Hour Division, which does not provide case opening
or closing dates. The company name is the Legal Name provided by the dataset unless
that field is blank, in which case the Trade Name is used. The dataset provides only one
address and does not indicate whether it is the company headquarters address or the
establishment address. The penalty amount is the total of civil monetary penalties and
mandated back wages. The original dataset provides a breakdown. 699676 2589
ROBERT WOOD JOHNSON BARNABAS HEALTH RWJBarnabas Health 13494 $0
$13,494 2020 20200515 safety-related offenses workplace safety or health violation
federal agency action OSHA Occupational Safety & Health Administration civil
344753207 New Jersey TOMS RIVER 99 ROUTE 33 08755 622110 622110: General
Medical and Surgical Hospitals USA New Jersey non-profit healthcare services hospitals
Extracted from a download of OSHA's Enforcment Data downloaded on 12/07/2020,
available at https://enforcedata.dol.gov/views/data_catalogs.php 3651124 2589
6” [ VIOLATIONS TRACKER - Internet Source]
If history is any predictor of future conduct, defendant’s STCF will not likely turn away
25

anyone referred for their services - whatever the fraud this actor needs to perpetrate. The
STCF can No longer be the second certifying agent. It is too easy to manipulate billing
for government funds.
Further, whereas defendant, RWJ Barnabas Health, Inc. services over Vi New Jersey’
population, the risk to public safety (from falsified needs for drug treatment, for instance)
is too great not to address / implement these public safety measures. For all that these
proposals effectively bar fraud, they are finally public safety measures.
That the funding for the ‘per diem program’ will implement a preventive to fraud and
abuse of the system and therefore cut waste of funds, it is cost effective - saving money
by reducing the ease of False Claims practices by healthcare services in keeping with the
goal of Congress in the 2005 Deficit Reduction Act in providing for that which ‘primarily
drains Medicaid and Medicare, False Claims conduct by health care providers.’
As to the referring screening service, their services, dependent on government funds as
they are, financial incentives will motivate them to declare anyone coming through their
doors as a referral to a STCF. The number of referrals by the screening services should
not dictate continued funding received and more stringent regulations to ensure what here
smacks of kickbacks is not further incentive to the screening service to refer to the STCF,
42 U.S.C. § 1320a-7b(b). (App.I, 104a)
Additionally, where this matter shows that healthcare professionals, under color of
law, can (and do) effortlessly present doctored, incompetent, fabricated material to the
court in their various False Claims conduct, it seems necessary to be able to - as easily verify their certifying statements to the court. To that end these proposed guides call for a
26

verbal (in addition to the written) recording of the required clinical evaluation. The verbal
recording of the required clinical / psychiatric examination more readily provide proof of
compliance or, as here, noncompliance with court standard for establishing need for
involuntary commitment and it would be afforded the same privacy protection rights as
the concurrent written evaluation.
A further proposal is that all the certifying statements of the certificate should be
shared with the person/prospective committee before submission to the court for the
commitment order, as a matter of informed consent under due process guarantees. That is,
the person should be given all the information of the service’ conclusion of the nature of
the mental illness, the dangerousness to self, others, or property that it causes and why
this level of liberty deprivation (vs. a less restrictive setting) is needed. A full page added
to the certificate seems indicated here where the potential committee signs (checking off
on each of these statements) in confirmation of‘informed consent.’ Allowances for
the patient deemed mentally incompetent by virtue of the illness apply where the next of
kin or power of attorney needs to sign. Having a mental illness does not automatically
impute mental incompetence as the examining physician/psychiatrist with any
competence, would know. The measure of the verbal recording provides additional guard
from FCA healthcare providers’ manipulations. The False Claims practice of this matter’s
defendants evince the harm from such manipulation.
Further, notwithstanding that the Courts in 1976 relaxed the ‘affidavit’ status of the
certifying statements in the pursuit of the commitment order, a valid clinical certificate is
held to the same credibility standard as any other document seeking an order from the
27

court. The certifying physician should have full knowledge that penalties of perjury apply
to any false or falsified information. That should be clearly written on the certificate,
above the physician’s signature. (App.I, 141a-146a)
Where vulnerability of Medicaid recipients to healthcare FCA violations exists in
nongovernmental programs at healthcare service providers, these proposals offer, the
measure of Medicaid payments for nonemergency high ticket services be conditional on a
second opinion. For instance, where a physician treating a Medicaid recipient for diabetes
recommends a ‘high ticket’ treatment such as a leg amputation, that surgery/treatment
option requires a second opinion. In light of FCA abuses, that surgery may not be
necessary and a lower cost treatment may be, not just indicated but - as is the labor here,
actually life-saving.
IV. Significant Judicial Deficiencies in the Lower Courts Present Another Reason for
Court Review
While the Court’ review is necessary for the Third circuit’ widely conflicting position
on the Constitution' Fourteenth Amendment due process grants in 42 U.S.C.§1983 - it is
further sought as to due process rights infringement of judicial deficiencies in the lower
courts where judgment as a matter of law was denied in the District court's final judgment
and the Appeal' court's answer for rehear was granted simply to correct the Appeal’s
falsification of the record in its earlier dismissal of the case. In short, an apparent abuse of
procedural due process, (or more pointedly judicial procedures) in denying the
substantive to be heard.
28

The second of the two issues on appeal reads,
“The merits of the trial court’ dismissal [is also] a matter of procedural deficiencies. The
court dismissed the action for [a] reason it held fatal to it from the start of the proceedings
without allowance to amend the Complaint as might have been indicated after plaintiff’
2/2/20 filing (App.F-3, filedl/30/20, 47a-48a) declaring that it is Not a qui tam action on
behalf of the Government in pursuit of percentage of Government damage recovery, as
the DOJ states in the un-filed, undocumented pre-warning of intent to decline and further
‘suggestion (not motion) to dismiss’ (App. F-l & F-2, 43a & 44a-46a, respectively*)
states. The district’ opinion adopts almost verbatim the language of the US attorney’
suggestion to dismiss and argument for dismissal. (App.C, the district’ opinion, &
App.F-2, the DOJ spurious letter - ‘spurious’ qualified in the preceding)
*Both the undocumented letter of Government Intent to Decline Intervention and the
filed Notice to Decline Intervention and Suggestion to Dismiss were done by a U.S.
assistant attorney that is under US DOJ complaint investigation for having perpetrated
fraud on the NJ DOL. He did this by hacking the DOL’ computer system. Plaintiff has
personally been injured by this specific assistant US attorney in various ways via his
compromise of my internet communications. There is nothing supporting that this action
was as to proper procedures sent to his attention nor that any standard government
decision to decline or intervene was his to make unilaterally or even as would be proper
in association with the US Attorney General.To stress this case was never filed as a qui
tam action in pursuit of government recovery, and there is no record of its filing at the
US DOJ, Newark office this attorney works from. This actor is privy to plaintiff’ email
communications and apparently adopted control of the case upon its 8/20/19 email to the
OAG (155a). He has access to other personal information. Plaintiff has engaged law
enforcement proceedings to stop this actor’ various internet fraud and harassment he has
perpetrated by compromising my personal identifying information. This attorney
concocted an ‘adjustment’ of payments under guise of the NJ DOL to end an existing UI
claim. The sham adjustment and the money for this hoax on the NJ DOL was all done by
a manipulation of the computer systems. He stole from the DOL to perpetrate this hoax
that ended the active UI claim and prevent further payments whilst fraudulently
manipulating my direct deposit bank account.
As this pertains to the petitioned Court review, where both lower courts’ opinions’ are
29

practically verbatim this actor’s ‘suggestion to dismiss’ it is very disconcerting that
neither District nor Third Circuit bothered to note that the US DOJ filing of the purported
Government Notice to Decline Intervention and suggestion to Dismiss (App. F-2) did not
come with the authority, or more the point, legal authenticity of a duly filed case before
the US DOJ. This letter - the verbatim of the lower courts’ arguments for dismissal bears no identify number of the case filings at the US Attorney Office nor the office of
US Attorney General for that matter. There is nothing of standard procedure of a qui tarn
action in pursuit of government damages here and nothing (no paper trail of the case
filing at the US attorney’s for instance) as would be assumed if proper, that legitimizes
this assistant US attorney representing the government in this case. The 1/2/2020 Notice
to decline is 90 days beyond the 60 days limit for Government decision, if any. (US DOJ
Archive. 932, Provisions For The Handling Qui Tam Suits Filed Under The False Claims
Act) (This is a courtesy calculation based on the date of mailing to the OAG, to reiterate
there can be no actual limit calculation since there is no actual filing date at this office or
the US DOJ’ given plaintiff or that anywhere appears on the Notice to Decline as would
be subsumed in a case ID / Ref. No.).
The Suggestion (not motion) to Dismiss was held by plaintiff as not for the government
damages / the government portion of defendants FCA liability (argued in plaintiff’s
Response, App. F-3, 47a-50a), wherefore plaintiff’s summary judgment (App.G,
57a-62a) being dismissed under guise of Government claims reasons in highly irregular a denial of judgment as a matter of law. The damages of this FCA complaint are
plaintiff’s Not the government’s to pursue, wherefore the immaterial of Government
intervention; further, the claims were never disputed by either defendant, St. Joseph’s put
in a sham answer that was never served on plaintiff and RWJ Barnabas flat out defaulted.
(App. G, 57a-62a, Motion for Summary Judgment)
The district further defied federal standards in allowing a default answer and plaintiff’s
motion for judgment as a matter of law was improperly denied. (App. G, Motion for
Summary Judgement, 57a-62a). Defendant, RWJ Barnabas defaulted, plaintiff moved to
dismiss their out-of-time answer (App. H-l, 63a-64a; see also, App.H-2, 65a-68a,
Plaintiff Response to Defendant’ Opposition to [this] Motion, 5/9/20). The irregular
process made an appearance in the district’ decision to “dismiss [defendants]
crossclaims” (App.C, 13a-14a). Defendant, St. Joseph’ frivolous/sham answer entered,
complete with a false certification of service (App. F-5, 56a); the pleadings baseless and
insubstantial by virtue of the sham filing also held merit with the district.
30.

The third circuit skirted this second issue on appeal as well.
The lower courts’ opinion(s) have so far departed from the teachings of law
adjudicating the facts and laws of this case, the opinions are held in the classic sense of
an opinion - holdings not necessarily based on fact (nor law, as here.)
Due process freedoms enshrined in the Constitution complained of in the case, and
False Claims Acts claims violations, were further compounded by judicial misconduct of
the lower courts’ opinions or own invention for plaintiff’ reason for this action. The lower
courts cast the case as a qui tarn action in pursuit of percentage of government recovery.
The complaint everywhere, repeatedly, voluminously deny that, as explicitly restated on
Appeal. (App. D, 15a-28a)
Remanding this matter to the lower court would not serve the interests of justice in
light of such flagrant judicial misconduct. The district, originating the statements of all
three opinions of dismissal, effected the denial of a motion for judgment as a matter of
law. Coming under FRCiv.P 56(a): “The court shall grant summary judgment if the
movant shows that there is no genuine dispute as to any material fact and the movant is
entitled to judgment as a matter of law” plaintiff moved for summary judgment against
defendant RWJ Barnabas that filed no pleading disputing the claims. This defendant
defaulted in not answering the summons. Plaintiff’s motion as a matter of law also rested
on Court regulations expressly given in the Summons perfected on 2/7/20: “Within 21
days after service of this summons on you ...you must serve on the plaintiffan answer or
a motion under Rule 12 of the FRCiv.P. The answer or motion must be served on plaintiff
... ifyou fail to respond, judgment by default will be entered you for the relief demanded
31

in the complaint. ” (App. F- 4, 51a - 55a, Summons Returned Executed on Defendants)
Where defendant, RWJ Barnabas did not answer, defendant, St. Joseph’s Medical Centre
never served an answer on plaintiff. (App. F-5, 56a, Defendant, St.Joseph’ False
Certification of Service of answer) Both defendants defaulted, yet prevailed as plaintiff’
FCA claims were cast a qui tam matter on behalf of the government.
' Plaintiff’ §1291 appeal by right pointed to this discrepancy along with the viability of
the complaint’s FCA grounds. The 3rd. Cir. court nevertheless returned the same opinion
from the district, literally - practically verbatim, except for an added manufacture/
falsification of the record, declaring as ’specific fact’ plaintiff was arrested for the
unfounded ‘knife threat’. The Petition for En Banc and Panel Rehear was granted to
correct this falsification. The grant of 12/28/2020, returned the same (11/27/2020)
opinion for rehear but for deleting this falsification of the record and adjusting for the two
(not one) FCA claims of the fabricated diagnoses. In short, the lower courts present with
serious procedural deficiencies. All three opinions read alike an argument specious
altogether as to the facts and laws of the case. A review of this particular of the process
therefore is not so much important for teachings of the Court - the lower opinions are
unfounded in the laws and facts of the complaint - the complaint everywhere
substantiates an action for redress of due process violations conditional for defendants
FCA claims and validates the False Claims Acts claims liability, and too, plaintiff
standing and right to proceed pro se. A review of this portion then is more significant for
Court handling of evident judicial misconduct an affront on Constitutionally guarded
grants in defying (actively and passively) due process freedoms enshrined therein.
32

* *

These compelling reasons for the Court’s review may be captured in the Complaint’
concluding statement and this matter of constitutional grants for public welfare/ safety in
the interests of justice, may not be left unanswered.
“This argument substantiates denial of due process guarantees in violations of
constitutional provisions by defendants, St Joseph’ and RWJ Barnabas healthcare services
providers that defrauded the government and exploited plaintiff in their respective FCA
conduct of fraud and abuse to claim money from both government and plaintiff for
services not rendered and that done in violations of Constitutionally granted civil
liberties. The Constitutional due process guarantees that come against deprivation of civil
liberties under color of authority intentionally violated in defendants FCA fraudulent
course of conduct, are purposed to extort. Civil rights remedies are upheld in Title 42
whether the violence is ‘unadorned’ or context in more elaborate schemes as here where
it (the civil rights violations) are designed to defraud.” (id., 146a - 147a).
CONCLUSION AND PRAYER FOR RELIEF
For the foregoing reasons, in this final Court for justice, the petition should be granted.

Respectfully submitted,
ZOE AJJAHNON, PRO SE PLAINTIFF

By:
ZOEAJJA]

Pro Se

DATED: March 8th, 2021
33

UNTIFF-PETITIONER

